U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           PUBLIC
          RELEASE


                BUREAU OF THE CENSUS

     Columbia Dress Rehearsal Experience
      Suggests Changes to Improve Results
            of the 2000 Decennial Census

     Audit Report No. ESD-10783-8-0001 / September 1998




   Office of Audits, Economics and Statistics Audits Division
September 30, 1998

MEMORANDUM FOR:              James F. Holmes
                             Acting Director, Bureau of the Census


FROM:                        Johnnie E. Frazier
                             Acting Inspector General

SUBJECT:                     Columbia Dress Rehearsal Experience Suggests Changes to
                             Improve Results of the 2000 Decennial Census
                             Final Report No. ESD-10783-8-0001
                             September 1998

Attached is the final report on our audit of selected activities at the dress rehearsal site in
Columbia, South Carolina. An executive summary begins on page i. This report covers the initial
phases of the Columbia dress rehearsal, including the beginning of non-response follow-up.

Charlotte and Columbia managers should be congratulated for their accomplishments in launching
the dress rehearsal operation in Columbia with few delays. However, we would not want their
achievements to mask the fact that improvements are needed for the 2000 decennial. In
particular, our review identified operational problems encountered by the Columbia local census
office, many of which were caused or influenced by external factors. In some instances, these
problems delayed operations. In others, cost and effectiveness of operations were adversely
impacted. Our recommendations for improvements to the plan for the 2000 decennial appear on
pages 6, 8, 11, 16, 19, 21, and 23. The Acting Director, Bureau of the Census, expressed general
agreement with our recommendations, with exceptions as noted in the report.

We commend the Bureau on its responsiveness in taking quick action to address most of our
concerns. Many of the issues we raised have already been resolved. In other cases, implementing
actions are planned. Complete comments to our draft report are attached, and we have
incorporated them into the final report where appropriate.

We would appreciate receiving your audit action plan addressing our recommendations within 60
calendar days, in accordance with Department Administrative Order 213-5. The plan should be in
the format specified in Exhibit 7 of the DAO. Should you have any questions or need to discuss
the report’s contents, please contact Charles Tegeler, Director, Economics and Statistics Audits
Division, on (202) 482-2395. We appreciate the cooperation and courtesies extended to us
during our review by Census Bureau staff at headquarters and at the regional and local census
offices.

Attachment

cc: Robert J. Shapiro, Under Secretary for Economic Affairs
U.S. Department of Commerce                                                             Final Report ESD-10783-8-0001
Office of Inspector General                                                                            September 1998

                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . 3

          I.        NON-RESPONSE FOLLOW-UP PREPARATION
                    WARRANTS MANAGEMENT ATTENTION . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                    A.        Training Packets Were Incomplete . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                    B.        Local Census Office Experienced Problems Printing Address Files . . . . . . 4

                    C.        Matching Maps with Address Registers Was Problematic . . . . . . . . . . . . . 5

                    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                    OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          II.       UPDATES TO ADDRESS FILE NEED TO BE PROCESSED . . . . . . . . . . . . . . . 8

                    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                    Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                    OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          III.      MAP PROBLEMS OCCURRED THROUGHOUT
                    DRESS REHEARSAL OPERATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    A.        Update/Leave Maps Had Numerous Problems . . . . . . . . . . . . . . . . . . . . . 10

                    B.        Non-Response Follow-Up Maps Were Difficult
                              to Match with Address Registers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
                                                                                                                              .

                    C.        Recruiting Maps Were Unusable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                                                                                                                            .
U.S. Department of Commerce                                                     Final Report ESD-10783-8-0001
Office of Inspector General                                                                    September 1998

            Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

            Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

            OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

      IV.   IMPROVEMENTS NEEDED IN SPECIAL PLACE
            ENUMERATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

            A.        Different Types of Special Population
                      Enumerations Were Tested . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . 13

            B.        Enumeration Form Lacked Key Information . . . . . . . . . . . . . . . . . . . . . . . 14

            C.        Enumeration at Targeted Non-Sheltered Outdoor
                      Locations Was Unproductive . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          14

            D.        Duplicate Responses Are Likely in Special Place Enumeration . . . . . . . . . 15

            Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

            Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

            OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

      V.    ENUMERATOR TRAINING NEEDS IMPROVEMENTS . . . . . . . . . . . . . . . . . 18

            Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

            Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

            OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

      VI.   QUESTIONNAIRE ASSISTANCE CENTERS
            MAY BE UNNECESSARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20

            Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

            Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

            OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
U.S. Department of Commerce                                                      Final Report ESD-10783-8-0001
Office of Inspector General                                                                     September 1998

      VII.   BE COUNTED PROGRAM NEEDS IMPROVEMENT . . . . . . . . . . . . . . . . . . . 22
                                                                                        .

             Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

             Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

             OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

      Appendix I – Agency Response to Draft Audit Report
U.S. Department of Commerce                                          Final Report ESD-10783-8-0001
Office of Inspector General                                                         September 1998

                                     EXECUTIVE SUMMARY

The Office of Inspector General conducted a performance audit of selected dress rehearsal activities
for the 2000 Decennial Census in Columbia, South Carolina. The Constitution mandates that a
census of the nation’s population be taken every 10 years for the purpose of congressional
apportionment. While apportionment is the most widely known use of census data, the data is also
used for allocating federal funds and is widely disseminated to state and local governments,
academia, and the private sector.

The Bureau of the Census has the responsibility for conducting decennial censuses. The next
decennial census will be conducted on April 1, 2000. In preparation for the 2000 decennial, the
bureau is conducting dress rehearsals to test various operations and procedures. The bureau has
selected three sites for the dress rehearsals: (1) the city of Sacramento, California; (2) 11 counties in
an area near and including the city of Columbia, South Carolina; and (3) the Menominee American
Indian Reservation in Wisconsin. The combination of a large urban site, a small city-suburban-rural
site, and an American Indian reservation was chosen to provide a comprehensive testing
environment for refining planned 2000 methodologies. The bureau believes that the three sites will
provide a good operational test of decennial procedures and systems.

The dress rehearsal provides for the operational testing of the procedures and systems planned for
use in 2000 at the regional census centers, local census offices, and the data capture center. New
procedures being considered–such as respondent-friendly forms readily available in many locations,
multiple mail contacts with each household, digital capture of forms, and statistical estimation
techniques–have all been tested individually in earlier operations. The dress rehearsal provides a
decennial-like environment for testing these procedures and systems.

Although OIG staff visited all three dress rehearsal sites, this report covers only Columbia.
Separate reports are being issued for the other two sites. Our audit objective was to test dress
rehearsal operations with particular emphasis on special procedures developed to enumerate
population groups that have historically been undercounted. This report includes the audit work
completed through the initial phase of non-response follow-up. Separate OIG reports will be issued
to address other phases of the dress rehearsal.

Charlotte and Columbia managers should be congratulated for their accomplishments in launching
the dress rehearsal operation in Columbia with few debilitating delays. However, our review
identified a number of areas where we believe the bureau needs to make improvements:

       l       Non-response follow-up preparation was hampered by problems with printing
               address files and by the late delivery of supplies. Also, non-response follow-up
               assignment preparation in rural areas was too complex and labor-intensive. Census
               needs to ensure computers have sufficient memory to print files and that materials
               are provided to local offices in advance to prevent delays in training and


                                                    i
U.S. Department of Commerce                                    Final Report ESD-10783-8-0001
Office of Inspector General                                                   September 1998

            enumeration. The bureau also needs to streamline non-response follow-up
            assignment preparation in rural areas. (See page 3.)

      l     Changes to the address file were not always processed and resulted in
            unnecessary field work. The bureau needs to determine why changes made to
            address listings during the update/leave operation were not reflected in the address
            file provided to the local census office for non-response follow-up. Census must
            ensure that all changes to the address file are processed timely. (See page 8.)

      l     Map problems occurred throughout dress rehearsal operations. Update/leave
            operation maps were too congested, missing map spots, and did not always match
            address registers. Moreover, the procedure used by enumerators to match housing
            units in the address registers to the related non-response follow-up maps was very
            time consuming. Finally, the local census office was unable to effectively assign
            enumerators to work in or around their neighborhoods because recruiting maps
            designed to match job applicants to the areas where they live were not practical and
            were not used. The bureau must evaluate map requirements and procedures for
            update/leave, non-response follow-up, and recruiting to determine why maps of poor
            quality were provided to the local census office. (See page 10.)

      l     Software problems prevented accurate information about special places from
            being provided to enumerators. We also found that the targeted non-sheltered
            outdoor location enumeration could be more efficiently run. Finally, we
            believe the bureau will have difficulty identifying and eliminating some of the
            duplicate responses that we observed. The bureau has established procedures to
            enumerate special populations who do not live in traditional housing units, but
            instead live in places such as nursing homes and college dormitories. Census must
            ensure that software problems are corrected so that enumerators are provided all
            relevant information about special places. In addition, Census must reevaluate
            whether to enumerate targeted non-sheltered outdoor locations that are identified by
            local officials but do not meet the bureau’s own criteria, and require more
            information be collected at special places to ensure duplicate responses can more
            easily be identified. (See page 13.)

      l     We found a number of shortcomings in the training materials used during the
            dress rehearsal. For example student training manuals contained errors and
            confusing acronyms, did not always match up with instructor manuals, and did not
            have indexes for finding topics and answering questions. Furthermore, videos
            referenced in the manuals were not always used. As a result of these training
            shortcomings, we found that enumerators were not always prepared and
            occasionally mishandled questions and problems during enumerations. Census needs
            to improve training materials to ensure enumerators are better prepared. (See page
            18.)

                                              ii
U.S. Department of Commerce                                      Final Report ESD-10783-8-0001
Office of Inspector General                                                     September 1998

       l      Questionnaire assistance centers did not appear to be effective and may be
              unnecessary. The bureau needs to reevaluate whether questionnaire assistance
              centers should be included in its decennial design. (See page 20.)

       l      Partnership specialists working in conjunction with local partners encountered
              problems in selecting and monitoring Be Counted locations. Initially, there were
              no Be Counted locations in rural areas and some locations selected did not display
              the Be Counted forms. If the program is used during the 2000 census, the bureau
              needs to ensure that rural areas have access to Be Counted forms and that locations
              are monitored to ensure forms are being displayed. (See page 22.)

Our recommendations for improvements to the plan for the 2000 decennial census appear on pages
6, 8, 11, 16, 19, 21, and 23. We commend the bureau on its responsiveness in taking quick action to
address most of our concerns. Many of the issues we raised have already been resolved. In other
cases, implementing actions are planned. However, Census provided additional comments where it
did not agree on one of the eight findings. The disagreement concerned the continued use of
questionnaire assistance centers. We believe that more effective alternatives are available and
discuss the issue in detail beginning on page 20. Census comments were considered and, where
appropriate, are reflected in the final report. Census’ written response to the draft report is
attached as an Appendix.

We appreciate the cooperation and courtesies extended to us during our review by Census Bureau
staff at headquarters and at the regional and local census offices.




                                                iii
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

                                        INTRODUCTION

The Office of Inspector General has completed a performance audit of initial phases of dress
rehearsal activities in Columbia, South Carolina. The dress rehearsal provides for the operational
testing of procedures and systems for the 2000 decennial.

The Constitution mandates that a census of the nation’s population be taken every 10 years for the
purpose of congressional apportionment. However, the census data is also used for allocating
federal funds and is widely disseminated to state and local governments, academia, and the private
sector. A major problem in the 1990 decennial was the number of people not counted in the
census: this net “undercount” was estimated by the bureau to be 4.7 million people.

The Commerce Department’s Bureau of the Census has the responsibility for conducting decennial
censuses. The next decennial census will be held on April 1, 2000. Prior to a decennial, the Census
Bureau conducts a dress rehearsal to test various operations and procedures. In July 1996, the
bureau selected three sites for the 1998 Dress Rehearsal: (1) the city of Sacramento, California; (2)
11 counties in an area near and including the city of Columbia, South Carolina; and (3) the
Menominee American Indian Reservation in Wisconsin.

According to the bureau, Columbia was selected for its mixed rural and urban features and because
its relatively high proportion of African-Americans will give the bureau an opportunity to test
methods of reducing the differential undercount for this population group. The Sacramento site
was selected because its diverse population will allow the bureau to test methods designed to
reduce undercounts. The Menominee site was included to allow the bureau to test measures aimed
at reducing the undercount among American Indians. The bureau believes the combination of a
large urban site, a small city-suburban-rural site, and an American Indian reservation site will
provide a comprehensive testing environment for refining planned 2000 operations and procedures.

Perhaps the most visible of all dress rehearsal activities was Census Day, which was conducted on
April 18, 1998. However, as is the case with the actual decennial, dress rehearsal activities span a
much longer period of time. Since Census Day, the bureau has been developing its population
count by conducting necessary follow-up activities at nonresponding households and completing
other fieldwork.

The dress rehearsal provides for the operational testing of procedures and systems planned for use
in 2000 at the regional census centers, local census offices, and data capture centers.
Administratively, the bureau’s Charlotte Regional Census Center is responsible for conducting the
Columbia dress rehearsal, while its National Processing Center at Jeffersonville, Indiana, is
responsible for data capture for all three dress rehearsal sites. New procedures being considered for
2000–such as respondent-friendly forms readily available in many locations, multiple mail contacts
with each household, digital capture of forms, and statistical estimation techniques–have all been
tested individually in earlier operations.

                                                  1
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

                               PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to evaluate selected activities at the dress rehearsal site in Columbia.
We placed particular emphasis on reviewing the special enumeration procedures developed by the
bureau to include population groups that have historically been undercounted. We reviewed
applicable laws, regulations, policies, and procedures; examined selected files and records; and
reviewed appropriate documentation. OIG teams observed the enumeration of special places --
such as recreational vehicle parks, soup kitchens, and homeless shelters -- as well as the traditional
door-to-door enumeration. We interviewed bureau headquarters officials in Suitland, Maryland;
regional personnel in Charlotte; and local office employees and enumerators in Columbia.

We reviewed and evaluated compliance with applicable laws, regulations, policies, and procedures.
Specifically, we reviewed (1) Title 13, U.S. Code; (2) Office of Management and Budget Statistical
Policy Directive No. 15; (3) Public Law 103-430, which specifies cooperation between Census and
the U.S. Postal Service; and (4) Paper Work Reduction Act (Title 44). We found no instances of
noncompliance with applicable laws and regulations.

We did not review the adequacy of internal controls because they are being reviewed separately by
staff from our Atlanta Regional Office of Audits. We also did not assess the reliability of computer-
generated data because such data was not used in our review. The OIG’s Office of Systems
Evaluation is conducting separate reviews of decennial-related computer systems. In addition,
certain administrative areas, such as recruiting, personnel, and payroll are being reviewed by our
Atlanta regional staff and are covered in a separate report.

Because the dress rehearsal is still in process, and more comprehensive data on the results of the
dress rehearsal are not yet available, our observations are considered preliminary and are subject to
change pending further information and analysis.

Our audit was conducted at bureau headquarters in Suitland, the Regional Census Center in
Charlotte, and the local census office in Columbia. The audit was conducted in accordance with the
Government Auditing Standards, and was performed under the authority of the Inspector General
Act of 1978, as amended, and Department Organization Order 10-13, dated May 22, 1980, as
amended.




                                                   2
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

                            FINDINGS AND RECOMMENDATIONS

I.     NON-RESPONSE FOLLOW-UP PREPARATION
       WARRANTS MANAGEMENT ATTENTION

A nationwide census will begin April 1, 2000, and must be completed by December 31, 2000. To
be completed accurately and on schedule, it is essential that local census office staff be provided
with sufficient supplies and materials and that the number of tasks related to preparing enumerator
work assignments be kept to a minimum for local offices. This is especially important for non-
response follow-up because, of all decennial operations, it is the most time-sensitive, labor-
intensive, and costly.

In Columbia, non-response follow-up was an eight-week operation, scheduled to begin on May 14
and end on July 10. Based on the mail return, Columbia was required to follow-up with
approximately 133,000 nonresponding housing units. To accomplish this, the local office hired and
trained approximately 1,800 enumerators and assembled over 3,300 work assignments.

However, assignment preparation was hampered by problems with printing computer-generated
address listings, matching computer-generated maps with the appropriate assignment areas, and
recovering from the late delivery of materials. Local census office staff put in long hours
assembling assignments to ensure that non-response follow-up would start on time. Nevertheless,
not all enumerators were provided with assignments the first day of the operation. Beginning non-
response follow-up on time for the 2000 decennial will be imperative because it directly affects the
start of subsequent operations.

We believe that these conditions, if replicated at local offices nationwide during 2000, could result
in a less accurate decennial and unnecessary costs.

A.     Training Packets Were Incomplete

It is important that enumerators be provided with the materials needed to complete their training,
perform enumeration activities, and process payroll. For example, new employees need personnel
and payroll forms, training materials, and enumeration materials. These materials are supposed to
be included in packets and provided to every employee on the first day of training.

In preparing for non-response follow-up, the bureau had difficulty providing Columbia with
adequate and timely materials. For example, missing from some training packets were personnel
and payroll forms, employee handbooks, Privacy Act Notices, Welfare-to-Work forms, and W-4
forms. In addition, there was an insufficient supply of forms needed for enumeration, such as the
Notice of Visit. All these materials are referred to in the training manual, are needed for training,
and should have been included in the training packets.

                                                   3
U.S. Department of Commerce                                           Final Report ESD-10783-8-0001
Office of Inspector General                                                          September 1998

Initially, these packets were to have been assembled in Jeffersonville. However, for non-response
follow-up, the packets had to be assembled by the local office. Regional office personnel indicated
that because Jeffersonville was running behind schedule, forms and manuals were shipped in bulk to
the local census office. We believe that shifting the burden of assembling training packets to the
local census office was further complicated by the “just in time” concept, under which materials
were to be delivered to local census offices just before they were to be used for training and
enumeration. The bureau decided on “just in time” delivery due to a shortage of storage space at
local census offices.

However, the “just in time” concept did not allow for unplanned slippages, and Columbia was
forced to assemble the training packets only days prior to the start of non-response follow-up. As a
result, the local census office did not have sufficient time to order the additional supplies needed
and some enumerators were provided with incomplete training packets. Without sufficient forms
and materials, training orientation on filling out personnel and payroll forms was of limited
effectiveness. In addition, as enumerators went out for the first time, many did not have the Notice
of Visit form. This form provides the name and telephone number of the enumerator and is to be
left at those housing units where no one answers the door. Without this form, residents were
unaware of the enumerator’s visit.

Furthermore, having to assemble nearly 1,800 training packets for non-response follow-up put an
unnecessary strain on local census office resources and prevented the timely start of non-response
follow-up because staff, expecting to assemble over 3,300 non-response follow-up work
assignments, had to be reassigned to assemble training packets.

Having the local office dedicate resources to assembling training packets was a factor in causing
delayed work assignments. Consequently, enumerator training could not be completed because
work assignments were not ready. For the decennial census, we believe that the bureau must
improve the delivery/supply system for the local offices and regional centers to ensure quality
control and timely delivery of supplies, equipment, and computer-generated products.

B.      Local Census Office Experienced Problems Printing Address Files

Electronic files containing address listings and address labels for 133,000 housing units included in
non-response follow-up were prepared by headquarters and sent to the regional census center.
Using assignment software, the regional census center sorted the address listing into assignment
areas. Each assignment area, consisting of approximately 40 housing units, was given a unique
identifying number. The regional census center then sent the sorted address listings and address
label file to the local census office for printing. After printing, the local office placed address labels
on questionnaires and matched address lists with maps.




                                                    4
U.S. Department of Commerce                                              Final Report ESD-10783-8-0001
Office of Inspector General                                                             September 1998

However, when Columbia initially attempted to print the address listings and label files, the size of
the computer files proved incompatible with computing resources and address information could
not be printed. Computer staff were sent from the regional census center to install additional
memory in the computers. As a result, three days were required to print address listings and labels
instead of the several hours that had been planned. These printing problems also contributed to the
delayed start of non-response follow-up operations in some assignment areas.

C.     Matching Maps with Address Registers Was Problematic

The update/leave operation precedes non-response follow-up. During update/leave, enumerators,
while hand-delivering questionnaires to housing units in rural areas, make corrections to maps.
During non-response follow-up, the annotated update/leave maps are to be matched with smaller
redrawn assignment areas. An assignment area for update/leave consisted of 250 housing units,
whereas an assignment area for non-response follow-up consisted of 40 housing units. The
following figure illustrates the overlap of assignment areas for update/leave and non-response
follow-up:
                                  Figure 1: Sample Map Boundaries




                     Solid lines indicate Update/Leave Assignment Area
                     Dotted lines indicate Non-Response Follow-Up Assignment Area




                                                    5
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

Because the assignment areas for non-response follow-up differed from those for update/leave,
regional census center and headquarters officials created special procedures for matching maps to
address registers for rural areas. Since census blocks were consistent between assignment areas,
blocks could be used as the basis for matching maps with address registers. To accomplish this, the
local census office was provided with two lists: one list paired update/leave assignment areas with
census blocks; the other list paired non-response follow-up assignment areas with census blocks.
Local census office staff were then instructed to manually compare the two lists and record the
associated non-response follow-up assignment area number on the update/leave listings. Through
this procedure, maps and address registers could, in rough fashion, be matched for non-response
follow-up in rural areas.

Bureau officials acknowledged that these procedures were time-consuming, labor-intensive, and
error-prone. Using these procedures for matching maps to address registers contributed to the
delay in providing enumerators with work assignments.

Late delivery of supplies and insufficient quantities of materials, printing problems, and unplanned
tasks related to the preparation of non-response follow-up assignment areas created an office
environment in which errors could easily be introduced and resulted in some enumerators not being
provided with assignments in time for the start of non-response follow-up. Beginning the operation
on time is imperative because it directly affects the start-up of subsequent operations. For example,
phone interviews in blocks selected for the post-enumeration survey begin as soon as corresponding
non-response follow-up assignments are closed out.

In some instances, local and regional staffs were able to take action to resolve the obstacles, such as
the printing of address files. In other instances, problems could not be resolved in time to prevent
an impact on operations. In particular, these problems contributed to the delay in providing
enumerators with work assignments at the start of non-response follow-up. Regional census center
staff acknowledged that they will not be able to supplement the activities of every local office
during the 2000 decennial as they did for the dress rehearsal in Columbia. Regional and local
managers and staff should be congratulated for their accomplishments in launching non-response
follow-up with only minor delays, and for completing non-response follow-up ahead of schedule.
However, we would not want their achievements to mask the fact that improvements are needed to
ensure an accurate, timely, and cost-effective 2000 decennial census.

Recommendation

We recommend that the Acting Director, Bureau of the Census, improve the delivery/supply system
for the local offices and regional centers to ensure quality control and timely delivery of supplies,
equipment, and computer-generated products.




                                                   6
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

Agency Response

The bureau believes that theses problems have been resolved stating that the Census 2000 Dress
Rehearsal has provided valuable lessons regarding quality control needs for shipping and receiving
supplies, kits, and other Census 2000 products. Due to the significant operational burden placed on
regional staff during the Dress Rehearsal, the Census Bureau has reevaluated its procedures for
supply and kit delivery. In Census 2000, materials and kits will be packaged centrally at the
Jeffersonville National Processing Center and shipped to the regions rather than assembled on-site
at the local offices, as was done in the Dress Rehearsal. In addition, quality control needs
associated with materials, supplies, equipment, and all other regional deliveries have been
significantly improved as a result of an on-line, automated tracking system the Bureau put into place
this summer. This system will enable the regions to provide real time feedback to bureau
headquarters about deliveries and better manage their schedules and work around anticipated
deliveries.

OIG Comments

The OIG agrees with the bureau’s plan to centralize material and kit preparation at the
Jeffersonville National Processing Center and to quality control deliveries through an on-line
automated tracking system. We believe this plan will better ensure that the local census offices will
receive supplies and materials on time and in sufficient quantities. However, we do not believe the
bureau has adequately addressed how it will resolve problems associated with printing computer-
generated address files at the local census office for Census 2000. The audit action plan should
address how printing problems encountered by the local census office will be resolved for Census
2000.




                                                  7
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

II.    UPDATES TO ADDRESS FILE NEED TO BE PROCESSED

During update/leave operations, as housing units are being located and questionnaires left,
enumerators note those housing units that are shown as existing, but do not in fact exist. These
“deletes” are provided to headquarters for processing. In this manner, address files provided to
local census offices during non-response follow-up will contain only existing housing units.
However, for the dress rehearsal, housing unit deletes recorded during update/leave were not
processed by headquarters. Because housing unit deletes were not removed from the address file,
enumerators were unnecessarily tasked with following up on units that did not exist and should
have been removed from the address files.

When we followed up with headquarters officials to determine why deletes had not been processed,
we were given two different explanations. One official indicated that software problems prohibited
housing unit deletes from being removed from the non-response follow-up address file. However,
another official indicated that, without field verification, the bureau was simply reluctant to delete
housing units from the database.

Regardless of which explanation is correct, the failure of the address file to have been corrected for
update/leave deletes was not communicated to regional and local officials. Local managers were
frustrated that the time and effort expended to update address listings during update/leave had been
wasted.

It is critical that address changes from update/leave operations be processed timely and be reflected
in the non-response follow-up address files for the start of that operation. Failure to do so in the
2000 decennial will result in unnecessary costs associated with paying enumerators to follow-up on
housing units that should have been removed from the address file.

Recommendation

We recommend that the Acting Director, Bureau of the Census, provide for the timely and accurate
updates to maps with census address data. We would like to clarify that this recommendation also
is applicable to finding III. Map Problems Occurred Throughout Dress Rehearsal Operations.

Agency Response

The bureau concurred with our recommendation and its Geography Division has established an
inter-divisional Geographic Products Quality Assurance Team that includes staff from the Field and
Decennial Statistical Studies Divisions. This team has been reviewing all maps and other
geographic products since mid-July, and the maps provided for recent field operations, such as the
nationwide Address Listing Operation, have not had the types of problems that affected the Dress
Rehearsal.

                                                  8
U.S. Department of Commerce                                      Final Report ESD-10783-8-0001
Office of Inspector General                                                     September 1998

OIG Comments

We agree that a Quality Assurance Team is necessary to review maps and other geographic
products. However, the audit action plan must specifically address the processing of update/leave
housing unit deletes for Census 2000.




                                                9
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

III.   MAP PROBLEMS OCCURRED THROUGHOUT
       DRESS REHEARSAL OPERATIONS

Accurate maps and associated address lists are essential for ensuring that households receive census
questionnaires and that enumerators are able to locate housing units. During update/leave
operations, enumerators simultaneously hand-delivered questionnaires to households in rural areas
and updated address lists and maps to reflect housing unit additions and deletions. During non-
response follow-up, enumerators were provided with maps and address registers to locate housing
units from which questionnaires had not been returned. Maps were also used during recruiting to
determine whether enumerators could be assigned to work in areas near their residence.

A.     Update/Leave Maps Had Numerous Problems

Columbia experienced a variety of problems associated with update/leave maps. Maps provided to
the local office for the operation in some cases were too congested, had missing housing units, and
did not match related address registers. To correct this problem, staff from headquarters and the
region assisted the local office in reprinting maps and devising special procedures for the
update/leave operation. Thus, the bureau was able to identify and correct problems with
update/leave maps in a timely manner, and we commend them for this accomplishment. Early
action permitted update/leave operations to start on time. However, in the 2000 decennial, the
bureau will have limited ability to assist each local census office in the manner it was able to assist
Columbia in the dress rehearsal.

B.     Non-Response Follow-Up Maps Were Difficult
       To Match with Address Registers

Maps for non-response follow-up are printed only for areas where questionnaires are delivered
through the mail (urban areas). For residences where questionnaires were to be hand-delivered,
enumerators reused the update/leave maps from a previous operation. Problems with reusing
update/leave maps have previously been discussed. (See page 5.)

Because maps for urban areas did not define assignment areas, many enumerators indicated that
they spent several hours reviewing non-response follow-up maps attempting to match housing units
listed in address registers with related maps. For example, one enumerator was provided with 42
maps: a census tract map that identified the assignment’s general geographic area; 40 detailed
census tract maps; and an index map that allows enumerators to toggle between the tract map and
the detailed maps. After reviewing all 40 detailed census tract maps, the enumerator determined
that only 8 were needed. The other 32 maps included areas not in the assignment area, and
therefore, were not necessary.




                                                  10
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

The enumerator also pointed out the difficulty in matching the address registers to the maps. In
address registers, housing units are categorized into census blocks. However, since index maps did
not include block numbers, enumerators had to review each of the detailed maps searching for
appropriate block numbers. This process was very tedious and time-consuming and needs to be
streamlined.

C.     Recruiting Maps Were Unusable

Recruiting maps were to be used by the local census office to match job applicants with assignments
in areas where they live. It was anticipated that job applicants would be able to locate their
neighborhoods on the maps; the local office could then assign enumerators to work in areas close to
their homes. Census has determined that assigning enumerators to areas near their residences is
beneficial because enumerators will be familiar with street locations and neighborhoods. Also, costs
would be reduced through less travel time and mileage.

However, the recruiting maps were not easy to use. For example, the block maps were
cumbersome, measuring 3 by 3 ½ feet, and some testing locations, where job applicants first see the
maps, were provided with as many as 40 block maps. When using the maps proved to be
impractical, the local census office attempted to match enumerators to assignment areas using
phone number prefixes. However, this too proved to be ineffective.

We believe the bureau needs to provide local census offices with procedures that will allow them to
systematically assign enumerators to work in areas close to where they live. When we spoke to
headquarters officials concerning the usability of recruiting maps, they advised us that they plan to
use computers to match enumerators with their assignment areas during the 2000 decennial.

While map problems associated with update/leave operations were identified and corrected for the
dress rehearsal, it is doubtful that a similar process can be easily implemented in the 2000 decennial.
Furthermore, we believe that the bureau should determine whether it is possible to reduce the time
enumerators spend trying to locate housing units on maps used for non-response follow-up.
Finally, the bureau needs to evaluate how to effectively assign enumerators to areas where they live,
whether through maps, computer matching, or other alternatives.

Recommendation

We recommend that the Acting Director, Bureau of the Census, develop reliable methods to match
enumerators with the most appropriate assignment areas. In addition, recommendation for finding
II. Updates to Address File Need to Be Processed also applies to this finding.

Agency Response

The bureau concurred with our recommendation and has conducted a thorough review of our
finding regarding the need to develop more reliable methods to match enumerators to appropriate


                                                  11
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

assignment areas. The bureau has assessed decennial products and/or operations and has discussed
this matter extensively with regional and headquarters’ field staff. Based on the bureau’s analysis
the following steps will be implemented to address this issue in Census 2000:

1.     The bureau has improved recruiting maps to make the tract numbers and tract boundaries
       more evident.

2.     Efforts are already underway to incorporate a verification edit into the PAMS/ADAMS
       system that will check for a valid tract number, ensuring that it relates to the appropriate
       local census office.

3.     The bureau will require Regional Census Center and Local Census Office managers to code
       the location of each job applicant’s home address at the tract level, at the time of
       recruitment and /or testing. This requirement will be strengthened in recruitment training
       manuals to ensure that applicant geocoding at the tract level or below occurs during the
       recruitment/testing process.

4.     The bureau will reinforce, through training and materials, the need to make applicant
       selections at the tract level or below.

5.     The bureau will ensure that non-response follow-up crew leaders have county locator maps
       that clearly show the various census tracts and can be used to assist in making enumerator
       assignments at the time of enumerator training.

OIG Comments

These actions, if properly implemented in Census 2000, will meet the intent of the recommendation.




                                                 12
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

IV.    IMPROVEMENTS NEEDED IN SPECIAL PLACE ENUMERATION

Census is responsible for enumerating special populations -- people who live in nontraditional
housing, or who have no permanent residence. Although we found that Census was generally
effective in carrying out the operation, we believe that some improvements can be made to improve
its efficiency and effectiveness. Specifically, we found that poor preparatory work resulted in an
incomplete enumeration at one site; enumerating targeted outdoor locations appeared to be
unproductive for Columbia; and some of the procedures used for enumerating special populations
may increase the risk of uncorrectable duplicate responses.

A.     Different Types of Special Population
       Enumerations Were Tested

In addition to counting people living in houses and apartments, Census must also enumerate people
living in group quarters, other nontraditional housing units, and people having no permanent
residence. Nontraditional housing units include nursing homes, group homes, college dormitories,
and migrant worker camps. The bureau has developed a comprehensive set of procedures to
enumerate these special populations who are characterized by unique living circumstances and have
historically experienced high undercount rates.

The dress rehearsal tested some enumeration methods that will be used for these special populations
in the 2000 decennial:

--     Service-based enumeration is designed to improve the count of individuals who do not have
       a permanent residence and who might not be counted using traditional enumeration
       methods. Service-based enumerations were conducted in selected service locations, such as
       shelters, soup kitchens, and at targeted outdoor locations.

--     Transient night enumeration attempts to count highly mobile individuals who do not live in
       traditional homes. Examples include people who live in recreational vehicles and boats or
       who travel with carnivals.

--     Group quarters enumeration counts individuals living in places such as nursing homes,
       prisons, and college dormitories.

To enumerate effectively using these methods, the bureau recognizes that it must first create
inventories of special places. These inventories include the location, the names of contact persons,
the number of people expected to be counted at each location, the preferred times to enumerate,
and where appropriate, whether male or female enumerators should be used. This information is
important to the enumeration because it enables the scheduling of the best times to enumerate, and
the assignment of the appropriate numbers and types of enumerators.




                                                 13
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

B.     Enumeration Form Lacked Key Information

Enumeration teams use an Enumeration Record (Census Form DX-352) to assist in enumerating
special places. The form should contain the name and location of the special place and other
relevant information. However, we reviewed forms used by enumerators during the dress rehearsal
and found that they omitted pertinent comments in the remarks section. In addition, most of the
Enumeration Records we reviewed did not have the recommended times to enumerate. Some also
contained inaccurate estimates of the number of people to be enumerated. It is important for
Census to know the numbers of people expected to be enumerated and the best times to enumerate
in order to know how many enumerators to assign and when they should arrive. Because the forms
lacked this key information, enumerators were unaware of the special circumstances that could
affect their enumeration.

Inadequate key information about transient night--an evening designated to count people living in
recreational vehicles, on boats and in other types of transient facilities--resulted in inappropriate
numbers of enumerators assigned to conduct the counts. For example, in one instance, six
enumerators and a crew leader visited a campground expecting to count more than 100 campers.
Information about the number of campers was not shown on the Enumeration Record, but had been
orally communicated to the enumeration team. When the team arrived at the campground, the
contact person had not been notified that the team was coming, and the team found only 20
campsites, 16 of which were vacant. As a result, the team of seven enumerators counted the
occupants of only 4 recreational vehicles.

In another instance, on the same evening, a team of 6 enumerators visited a state park, for which
the Enumeration Record failed to provide the key information necessary to plan the enumeration.
The enumerators found the park to be very large, encompassing a marina, 5 lakeside villas, and sites
for nearly 100 recreational vehicles and 15 tents. The team was unable to complete the
enumeration at that time and had to reschedule its visit.

Assigning too many enumerators can result in unnecessary costs, while not assigning enough
enumerators can possibly result in incomplete counts. In all cases, not having sufficient information
to plan enumerations results in inefficiencies. In discussing these problems with local managers, we
were told that a software glitch prevented the necessary information from being shown on the
Enumeration Record. For the 2000 decennial, the bureau needs to ensure that enumerators are
provided with accurate and complete information to plan enumerations at special places.

C.     Enumeration at Targeted Non-Sheltered Outdoor Locations Was Unproductive

Enumerations conducted at targeted non-sheltered outdoor locations are designed to count people
who would otherwise be missed because they do not live in traditional housing units. For the dress
rehearsal, the Columbia police department provided a list of six outdoor locations. To execute the
count, 3 enumeration teams, each consisting of approximately 10 enumerators, visited 2 sites each.



                                                 14
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

The end result proved disappointing: these 30 enumerators were able to locate and count only 7
people.

In discussing these results with a headquarters official, and noting that the policy is to enumerate
only those locations where 15 or more people are expected to be found, we were told that the
bureau will reevaluate its procedures in light of the disappointing results we noted. The official
hypothesized that, while it may be of limited effectiveness in cities like Columbia, the operation
might be better suited for larger urban areas.

D.     Duplicate Responses Are Likely in Special Place Enumeration

Techniques used for special place enumeration during the dress rehearsal increased the possibility
that multiple responses would be submitted by the same individuals. For example, during the dress
rehearsal special place enumeration, shelters were enumerated on Monday, April 20; soup kitchens
on Tuesday, April 21; and targeted non-sheltered outdoor locations on Wednesday, April 22. We
found that the sequencing of these enumerations makes duplicate responses likely when the same
individuals from the target population group are counted at the different locations on different days.

We noted one special place that was enumerated twice, once on Monday during a shelter
enumeration, and then again on Tuesday during a soup kitchen enumeration. At the soup kitchen,
we observed several people asking whether they had to complete questionnaires again since they
had been enumerated the previous night during the shelter enumeration. Furthermore, we found the
soup kitchen enumeration was susceptible to duplicate responses, because one organization served
breakfast, another served lunch, and a third served dinner. Because each location served a different
meal to the same target population group, but at different times, it is quite possible that the same
individuals may be counted more than once.

Soup kitchen and shelter training manuals require enumerators to count everyone at every location.
Furthermore, if individuals fail to cooperate, enumerators are instructed to collect “last resort”
information–that is, through observation, to note the gender and race of the individual. However,
enumerators are not instructed on how to manage situations where people claim that they have
already been counted.

When we spoke to headquarters officials, they stated that most multiple responses should be
eliminated during data processing. However, they did acknowledge that “last resort” duplicate
enumerations would not be detected because of insufficient information.

Although the bureau uses software programs designed to detect and eliminate duplicate responses,
we believe that it will have only limited success in eliminating responses from special place
enumerations. Because of this difficulty, the bureau should explore ways to reduce the number of
duplicate responses at the time of enumeration rather than relying on automated unduplication
processes. For example, consideration might be given to performing all special place enumerations



                                                  15
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

at the same time, such as is done for transient night operations, thereby reducing the probability that
the same individuals will be counted more than once.

Recommendation

We recommend that the Acting Director, Bureau of the Census, provide enumerators with accurate
and complete information to plan enumerations at special places.

Agency Response

The bureau concurred with our recommendation advising that it will ensure better training of the
special place operations’ supervisor to improve this procedure for Census 2000. The bureau will
incorporate this concern in future service-based enumeration training activities and explain the
importance of entering complete and accurate information on enumeration records prior to actual
enumeration activities.

OIG Comments

These actions, if properly implemented in Census 2000, will meet the intent of the recommendation.

Recommendation

We recommend that the Acting Director, Bureau of the Census, provide specific instructions for
special place enumeration to reduce the possibility of obtaining duplicate responses.

Agency Response

The bureau concurred with our recommendation advising that it is sensitive to the issue of
duplication during service-based enumeration operations, and has already taken steps to address this
matter in Census 2000. The bureau has added a question to the “Individual Census Questionnaire,”
which asks service-based enumeration respondents if they have filled out another census form
during the past week. The bureau also intends to evaluate Dress Rehearsal service-based
enumeration results, including the quality of data collected during this operation. Based on this
assessment, the Bureau will develop revised plans by February 1999 to minimize duplication risks in
Census 2000.




                                                  16
U.S. Department of Commerce                                     Final Report ESD-10783-8-0001
Office of Inspector General                                                    September 1998

OIG Comments

These actions, if properly implemented in Census 2000, will meet the intent of the recommendation.
When the evaluation is completed, the bureau is asked to provide our office with a copy of the
assessment of the service-based enumeration and its revised plans to minimize duplication risks in
Census 2000.




                                               17
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

V.     ENUMERATOR TRAINING NEEDS IMPROVEMENTS

Census has the responsibility for training enumerators, crew leaders, and field office supervisors in
conducting field operations. We attended several training sessions covering different dress
rehearsal phases and found training manuals inadequate for preparing enumerators for certain
situations.

The Columbia local census office is expected to train almost 3,800 employees for the various phases
of the dress rehearsal. The largest training phase was for non-response follow-up: more than 1,800
enumerators had to be trained. Crew leaders, who are themselves temporary employees, serve as
instructors for enumerator training. The method used for training is lecture and discussion,
delivered verbatim by the crew leaders from a training guide. Census uses verbatim guides to ensure
uniform training; to control the cost and timing of training; and to free supervisors from the burden
of having to prepare their training programs.

We found a number of shortcomings in the training materials used during the dress rehearsal. For
example, student training manuals contained errors and confusing acronyms, did not always match
instructor manuals, and did not have indexes for locating topics quickly. Furthermore, video
presentations, referenced in the manuals, were not always used.

As a result of these training shortcomings, we found that enumerators mishandled many situations
during enumerations. For example, the training manual for transient night -- an operation designed
to enumerate individuals living in recreational vehicles and boats or who travel with carnivals --was
unclear as to which day to conduct the count. Transient night occurred on Friday, April 17, the
night before Census Day. This led to much confusion because the questionnaire being filled out on
April 17 asked about people living there on the next day, April 18. We observed that during
training, enumerators asked the crew leader to clarify which date they should be using. The crew
leader, unsure of the correct answer, told the class to use April 18. As a result of this decision, the
crew leader instructed the enumerators to ask the interviewees what their status would be the next
day. That is, according to the crew leader, if they would be leaving the park on April 18, they
should not be enumerated, but if they expected people to be joining them on April 18, then the new
arrivals would also need to be enumerated.

When informed about the confusion over the dates, headquarters officials indicated that the crew
leader’s interpretation of which date to use was incorrect. Bureau managers agreed that the
training manuals had shortcomings. Headquarters officials advised that they did not have sufficient
time to do a dry run of the training materials for the dress rehearsal, but plan to do so for the 2000
decennial.

The bureau needs to ensure that sufficient time is provided in 2000 for a thorough review of
training manuals, including dry runs by the regional offices to correct errors. The bureau also needs
to review its manuals to eliminate unnecessary acronyms and make them less confusing.



                                                  18
U.S. Department of Commerce                                     Final Report ESD-10783-8-0001
Office of Inspector General                                                    September 1998

Recommendation

We recommend that the Acting Director, Bureau of the Census, improve training manuals to make
them more user friendly (such as including indexes and eliminating unnecessary acronyms) and to
reduce the number of errors and inconsistencies.

Agency Response

The bureau concurred with our recommendation and advised that it will provide indexes for training
manuals and will also clarify and better explain acronyms used in training. The bureau will also
clarify and better explain acronyms during non-response follow-up training and ensure that non-
response follow-up and service-based enumeration training manuals receive more extensive internal
reviews before issuance to regional training staff, including requiring dry runs for all training
manuals.

OIG Comments

These actions, if properly implemented in Census 2000, will meet the intent of the recommendation.




                                               19
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

VI.    QUESTIONNAIRE ASSISTANCE CENTERS MAY BE UNNECESSARY

The questionnaire assistance center and the telephone questionnaire assistance toll-free line have
similar goals: help respondents complete their forms. In comparing dress rehearsal data from both
programs, it is clear that the toll-free line was much more effective at providing assistance than
questionnaire assistance centers. For the dress rehearsal, as of June 28, the bureau received 23,371
phone calls for assistance from the three dress rehearsal sites, while the questionnaire assistance
center program in Columbia yielded only 40 respondents seeking assistance.

Questionnaire assistance centers are places where the public can go for help with filling out
questionnaires. In addition, if someone does not receive an addressed census form, that person may
pick up a Be Counted form at one of the centers. According to headquarters officials, the bureau
prefers that individuals go to assistance centers for help with the form received in the mail, rather
than the Be Counted form, because the mailback form is easier to process. Be Counted forms must
be geocoded and checked for duplicate responses once received, and many will require field
verification.

Questionnaire assistance centers can be staffed by paid bureau employees or by volunteers. All
assistance centers in Columbia were staffed by volunteers. Columbia’s two partnership specialists
were responsible for identifying locations and recruiting and training volunteers to staff the centers.

Volunteer-run questionnaire assistance centers were not effective in Columbia. Although the
partnership specialist had identified 27 sites, we found that some of these sites were not
participating in the program. Of the 10 questionnaire assistance centers we were able to contact, a
public library was the only center that participated as a questionnaire assistance center, but
participation ended after two days. According to a library spokesperson, the volunteer stopped
coming when the volunteer realized that no one was coming in for help. Furthermore, bureau data
indicates that only 41 respondents had requested assistance at centers in Columbia.

For the Columbia dress rehearsal, regional staff believed that they could rely on volunteers and that
they were replicating how questionnaire assistance centers would be run for 2000, stating that it
would be cost-prohibitive to pay staff at each center for 2000. However, given the poor
performance of volunteer-run centers, the regional partnership coordinator is recommending that
the bureau hire staff to assist volunteers in operating the centers.

We agree that relying exclusively on volunteers did not work However, before additional funds to
run questionnaire assistance centers are provided, we believe the bureau needs to evaluate how
effective questionnaire assistance centers were in helping individuals fill out forms mailed to their
residences. Because the bureau cannot easily publicize the locations of volunteer-staffed
questionnaire assistance centers or ensure that a paid-staff site will receive a sufficient number of
customers, we do not believe that assistance centers are a cost-effective means of providing
assistance. We recognize that helping respondents in filling out forms is important, but we believe
the bureau better accomplishes this through its telephone assistance program.


                                                  20
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

Recommendation

We recommend that the Acting Director, Bureau of the Census, reevaluate reliance on
questionnaire assistance centers, in light of the apparent successes of the telephone assistance
program.

Agency Response

The bureau disagreed with our recommendation stating that the use of walk-in assistance centers is
envisioned as a key component of the Census Bureau’s plan for providing questionnaire assistance,
especially assistance in foreign languages during Census 2000. While the Census Bureau concurred
that telephone questionnaire assistance is a cost-effective method for providing assistance to
respondents in English, providing such assistance in languages other the English is more
problematic and less cost-effective. In addition, it is particularly important that the assistance
centers provide assistance to those individuals who do not have access to telephones and to
individuals with poor literacy skills. The bureau also noted that space and, in some cases, staffing
for questionnaire assistance centers are normally provided on a volunteer basis by the local
community, thus reducing the potential cost savings that could be applied to other coverage
improvement operations should centers be reduced.

OIG Comments

We disagree and believe the bureau needs to reevaluate its reliance on questionnaire assistance
centers. Center locations are not publicized. Therefore, respondents are not aware where the
centers are located within their communities. Although some potential respondents may not have
telephones in their homes, we believe that it will be easier for them to find a public telephone (that
can be used day or night) than to make transportation arrangements to an assistance center (that
may or may not be staffed). Furthermore, assistance centers using volunteers were not effective;
volunteers were not reliable; and questionnaire assistance centers in Columbia only assisted 41
respondents. Moreover, we disagree with the bureau’s statement regarding the potential cost
savings of volunteer-run questionnaire assistance centers because the bureau plans to use paid staff
in questionnaire assistance centers for 2000, thus increasing the cost of the questionnaire assistance
center program for Census 2000.




                                                  21
U.S. Department of Commerce                                         Final Report ESD-10783-8-0001
Office of Inspector General                                                        September 1998

VII.   BE COUNTED PROGRAM NEEDS IMPROVEMENT

The bureau’s partnership specialists, who work with community partners, were not effective in
selecting Be Counted locations. In fact, the Columbia office compiled three very different Be
Counted site lists for the dress rehearsal. The first list contained 59 targeted sites; the second
targeted 21 sites; and the third consisted of a combination of 116 generic and targeted sites. Given
the short 4-week duration of the Be Counted program, a complete list of Be Counted sites should
have been compiled well before the operation.

The Be Counted campaign was designed to count persons who believe they were not included on
any other census form, to count people who did not receive a census questionnaire, and to
encourage participation in the census by persons who have traditionally been undercounted. The Be
Counted form is an unaddressed questionnaire that is distributed at selected sites, both generic and
targeted. Generic sites include city halls, post offices, and libraries. Targeted sites are places where
the traditionally hard-to-count persons might be expected to congregate, such as certain businesses
and churches. In Columbia, the Be Counted operation lasted 4 weeks, beginning on April 16 and
ending on May 14, 1998.

There are a number of reasons for the ineffectiveness of the Be Counted campaign. Some sites
were targeted too early, in the fall of 1997, and after that time, many locations decided not to
participate. Others were unaware of their commitment because the person agreeing to participate
had since left the organization. When the regional coordinator learned of this, she adjusted the list
from 59 proposed sites to 21 confirmed sites.

In addition, after the Be Counted campaign began, the regional partnership coordinator recognized
that locations contacted in the fall of 1997 should have been contacted again before the start of the
Be Counted campaign to ensure their commitment. We agree that a follow-up phone call would
have lessened the uncertainty over whether a site would participate.

In discussing Be Counted sites in rural areas, the regional partnership coordinator indicated that
headquarters required that Be Counted sites be targeted using local partners’ input. Therefore, not
having local partner input from rural areas, Be Counted sites had not been designated outside the
city of Columbia. After realizing that rural areas did not have access to Be Counted forms, regional
partnership staff decided to designate generic sites for rural areas. With these additions, the Be
Counted list grew from 21 to 116 sites. However, generic sites were not added until after the start
of the Be Counted campaign.

Written instructions for the dress rehearsal stated that all Be Counted sites would be targeted (that
is, generic sites would not be used) and that these sites would be identified by the partnership
specialist working with local and tribal governments and community organizations. According to
headquarters staff, the bureau had determined that it would not be feasible to support a large
number of sites in 2000, and that generic sites might lead to a high number of duplicate responses.
However, these instructions contradict the recommendations from the 1995 Census Test, which


                                                  22
U.S. Department of Commerce                                        Final Report ESD-10783-8-0001
Office of Inspector General                                                       September 1998

indicated that generic sites in rural areas, especially post offices and libraries, were the most
productive in terms of forms picked up by respondents. To ensure that the Be Counted program is
implemented successfully, bureau managers need to provide guidance consistent with lessons
learned from previous studies.

Finally, the bureau needs to periodically monitor locations to ensure that forms are being displayed.
During field visits on April 20, using the second list provided to us, we were able to contact 20 of
the 211 Be Counted sites to determine whether Be Counted forms had been provided and were
displayed. We found that two sites did not receive forms, while three others were not displaying
the forms.

Recommendation

We recommend that the Acting Director, Bureau of the Census, reevaluate the Be Counted
program to determine whether the number of sites or the location of sites contributed to improving
the response rate or increasing the likelihood that duplicate forms were submitted.

Agency Response

The bureau concurred with our recommendation advising that on-going analysis of gains from the
Be Counted program is part of the Census Bureau’s operational assessment of the Dress Rehearsal
results. Moreover, a formal evaluation of procedures used to resolve duplicate enumerations during
the Dress Rehearsal will be completed by January 1999. Current Census 2000 plans are to limit the
scope of the Be Counted program to include only sites identified in consultation with local partners
in hard-to-enumerate areas.

OIG Comments

These actions, if properly implemented in Census 2000, will meet the intent of the recommendation.
The bureau’s audit action plan should include a copy of the bureau’s assessment of Be Counted
data.




       1
         We were unable to contact a church listed as a Be Counted site because it was closed
during the day and no one in the office answered the door or the phone.


                                                 23
